No. 19-635

 

IN THE
Supreme Court of the United States

DONALD J. TRUMP,

Petitioner,
v.

CYRUS R. VANCE, JR., IN HIS OFFICIAL CAPACITY AS DISTRICT ATTORNEY OF THE COUNTY
OF NEW YORK, ET AL.,

Respondents.

CERTIFICATE OF SERVICE

I, Ashwin P. Phatak, do hereby declare that on March 4, 2020, as required by
Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the Brief
of Former Department of Justice Officials as Amici Curiae in Support of Respondents

on counsel for each party to the above proceeding as follows:

Jay Alan Sekulow Jerry D. Bernstein
Constitutional Litigation and Advocacy Blank Rome LLP

Group, P.C. 1271 Avenue of the Americas
1701 Pennsylvania Ave., NW, New York, NY 10020

Ste. 200 jbernstein@blankrome.com
Washington, DC 20006 212-885-5511
jsekulow@claglaw.com

202-546-8890 Counsel of Record for Respondent,

Mazars USA, LLP
Counsel of Record for Petitioner,
Donald J. Trump
Noel J. Francisco

Solicitor General

United States Department of Justice
950 Pennsylvania Ave., NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

Counsel of Record for the U.S. as
Amicus Curiae Supporting Petitioners

Carey R. Dunne

New York County District Attorney’s
Office

One Hogan Place

New York, NY 10013
dunnec@dany.nyc.gov

212-335-9000

Counsel of Record for Respondent,
Cyrus R. Vance, Jr., in his official
capacity as district attorney of the
County of New York

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 4, 2020.

luis fbaatal

Ashwin P. Phatak _
Counsel for Amici Curiae
